HHS/OIG, Audit -"Review of Valley Baptist Medical Center's Reported Fiscal Year
2003 Wage Data,"(A-06-06-00037)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Valley Baptist Medical Center's
Reported Fiscal Year 2003 Wage Data," (A-06-06-00037)
May 3, 2006
Complete
Text of Report is available in PDF format (357 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The
objective of our review was to determine whether Valley Baptist Medical Center (the hospital)
complied with Medicare requirements for reporting wage data in its fiscal year (FY) 2003
Medicare cost report.  We found that the hospital did not fully comply with Medicare
reporting requirements for reporting wage data in its FY 2003 Medicare Cost report.  The
hospital overstated its wage data by $951,494 and 49,462 hours.  We recommended that
the hospital implement review and reconciliation procedures
to ensure that the wage data reported on future Medicare cost reports are accurate, supportable,
and in compliance with Medicare requirements.  In its written comments on our draft
report, the hospital concurred with our findings.